APPENDIX A

STATE OF MICHIGAN
COURT OF APPEALS

UNPUBLISHED
November 20,2014

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

No. 317215
Kalamazoo Circuit Court
LCNo. 2012-001228-FC

v
JOHN ANTHONY AGUILAR,
Defendant-Appellant.
Before: M. J. KELLY, P.J., and BECKERING and SHAPIRO, JJ.
Per Curiam.

Defendant appeals by right his jury trial convictions of first-degree murder, MCL
750.316(l)(a), first-degree felony murder, MCL 750.316(l)(b), armed robbery, MCL 750.529,
and first-degree home invasion, MCL 750.110a(2). We affirm.
Defendant’s convictions stem from the death of Robert Medema. Defendant and Antonio
Livingston were convicted of Medema’s murder on the theory that they had broken into
Medema’s home in an attempt to steal money from him and subsequently beat him to death.
The jury heard testimony that defendant encountered Medema when Medema purchased a cross
at defendant’s garage sale and displayed a large amount of cash. There was evidence that, on a
daily basis, Medema visited his friend who lived across the street from defendant. The jury was
presented with evidence that, following Medema’s purchase of the cross, defendant followed him
to learn where he lived. Livingston testified that on August 10, 2012, he and defendant went to
Medema’s house. He further claimed that, after they received a call from Elizabeth Summers,
who told them that Medema had left his friend’s house, Livingston entered the house through a
window the two men had broken and waited for Medema. Livingston testified that, after
Medema came home and saw him, he hit him at least five times in the head with a baseball bat
and stole his money. Livingston stated that after this incident, he, defendant, and Summers went
to Detroit, where defendant cleaned his pickup truck, leaving it “immaculate.”

i

Defendant and Livingston were tried separately; Livingston was convicted prior to defendant’s
trial.

-1-

Defendant argues that he was denied the effective assistance of counsel.2 The right to the
effective assistance of counsel is guaranteed by the United States and Michigan constitutions.
US Const Am VI; Const 1963, art 1, § 20; United States v Cronic, 466 US 648, 654; 104 S Ct
2039, 80 L Ed 2d 657 (1984); People v Swain, 288 Mich App 609, 643; 794 NW2d 92 (2010).
“Effective assistance of counsel is presumed, and a defendant bears a heavy burden to prove
otherwise.” Swain, 288 Mich App at 643. “To prove a claim of ineffective assistance of
counsel, a defendant must establish that counsel’s performance fell below objective standards of
reasonableness and that, but for counsel’s error, there is a reasonable probability that the result of
the proceedings would have been different.” Id.
Defendant claims that his trial counsel was ineffective for eliciting testimony from two
witnesses, Summers and a police officer, from which the jury could conclude that defendant was
a thief. While defense counsel did elicit such testimony, she did so as part of an acceptable trial
strategy. Counsel established that defendant often stole items and later attempted to sell them at
a garage sale. She even sought testimony that defendant had been suspected in an earlier
burglary at a home in Medema’s neighborhood. In closing, counsel used this information in an
attempt to portray defendant as a mere thief interested in material goods, not a man interested in
stealing money or committing murder. Decisions regarding what evidence to present and how to
cross-examine witnesses involve matters of trial strategy, In re Ayres, 239 Mich App 8, 23; 608
NW2d 132 (1999), and we will not second-guess counsel on matters of trial strategy, nor will we
assess counsel’s competence with the benefit of hindsight, People v Horn, 279 Mich App 31, 39;
755 NW2d 212 (2008). Thus, despite the fact that defense counsel’s strategy ultimately failed to
secure a not guilty verdict, defendant has failed to overcome the presumption that counsel’s
cross-examination of the two witnesses was sound trial strategy and, accordingly, has failed to
demonstrate that her performance fell below objective standards of reasonableness.
Defendant next claims that counsel was ineffective for failing to object after the
prosecutor asked Livingston if Summers was “mistaken” or “wrong” when she testified that,
after the murder, he and defendant returned separately to defendant’s residence and Livingston
came back without pants. Although a prosecutor may not ask a witness to comment or provide
an opinion on the credibility of another witness, People v Buckey, 424 Mich 1, 17; 378 NW2d
432 (1985), a prosecutor may attempt to ascertain which facts are in dispute, People v Ackerman,
257 Mich App 434, 449; 669 NW2d 818 (2003). The prosecutor’s questions to Livingston were
not improper because they did not ask bim to provide an opinion on Summers’ credibility; rather,
the questions were an attempt to ascertain and clarify facts that were in dispute. Because the
prosecutor’s questions were proper, any objection would have been futile, and counsel is not
ineffective for failing to raise a futile objection. People v Fike, 228 Mich App 178, 182; 577
NW2d 903 (1998).

Whether a person has been denied effective assistance of counsel is a mixed question of fact
and constitutional law.” People v LeBlanc, 465 Mich 575, 579; 640 NW2d 246 (2002).
‘Tindings on questions of fact are reviewed for clear error, while rulings on questions of
constitutional law are reviewed de novo.” People v Jordan, 275 Mich App 659, 667; 739 NW2d
706 (2007).

2 tc

-2-

Defendant argues that counsel was ineffective when she allowed the trial court to ask a
juror’s question to a police officer asking why he concluded that defendant was involved in the
plot to rob Medema. A witness may not opine about the defendant’s guilt or innocence of the
charged crimes. People v Fomby, 300 Mich App 46, 53; 831 NW2d 887 (2013). Implied in the
juror’s question was that the officer believed defendant was involved in the robbery and the
question essentially asked the officer to explain his belief that defendant was guilty of the
charged crimes. Thus, the question improperly asked the officer to opine on defendant’s guilt.
However, decisions regarding how a witness should be questioned are presumed to be matters of
trial strategy. Horn, 279 Mich App at 39. Defense counsel may have made the strategic choice
that it was best to let the question be asked given that the question was from a juror and she did
not want the jurors to become frustrated that some of their questions were not being asked.
Defense counsel did object when the officer’s answer became lengthy and referenced some
evidence that was not presented at trial. Because we will not second-guess counsel on matters of
trial strategy and because counsel objected once the officer’s answer lengthened and became
more Hamaging to the defense case, we conclude that defendant is not entitled to relief on this
claim of ineffective assistance of counsel.
Even if defense counsel’s performance fell below objective standards of reasonableness,
defendant is not entitled to relief because he has not established a reasonable probability that, but
for counsel’s error, the result of his trial would have been different. Swain, 288 Mich App at
643. Strong evidence of defendant’s guilt independent of the asserted errors of counsel was
presented to the jury. One witness testified that when defendant saw the man who bought the
cross pull out a large amount of money, he flew off the porch and became interested in the sale.
Defendant subsequently told that witness and another individual that he had been following the
man and knew where he lived. Defendant asked the witness a “whole lot” of times to help him
get the man’s money. Livingston testified that it was defendant’s idea to rob Medema.
According to Livingston, on August 10, 2012, he and defendant drove to the area of Medema s
house. They broke a bathroom window, and defendant entered the house through the window.
He returned to Livingston after receiving a telephone call from Summers and learned that the
pickup truck across the street from his residence had left. Livingston then went into the house
through the window to wait for Medema. He hit Medema with a baseball bat and took his
money. Livingston’s testimony about Summers watching for Medema’s pickup truck to leave
and about the telephone calls between the two men and Summers was corroborated by Summers
and telephone records. Later that night, in Detroit, defendant power-washed his pickup truck,
cleaned the truck’s interior with tape, and altered its appearance. He placed a peace sign on it,
changed the mirrors, and put on a “back piece.” He also told Summers that he was moving to
Colorado. Impressions made by two different shoes were found in Medema’s bathroom. There
was testimony that one of the shoeprints was from Livingston and the other remained
unidentified. Further, the statements of innocence that defendant gave to the two detectives in
his interview and to a news reporter were contradicted by evidence. Defendant told the
detectives that after going to Detroit on August 10, 2012, he went to Angel’s Gentleman’s Club
anH gave ‘Tire” a ride home, but Kirstie Hunsberger, also known as ‘Tire,” did not work at the
club that evening. Defendant told the reporter that he had planned to rob Medema’s house but
changed his mind several weeks earlier when he saw security signs at the house and that he had
robbed another house in the area on August 10, 2012. Medema’s house did not have any
security signs and no other robberies were reported in the neighborhood between August 7 and
17, 2012. Based on this evidence, defendant has failed to establish a reasonable probability that,
-3-

but for the asserted errors on the part of his trial counsel, the outcome of the proceedings would
have been different. Accordingly, defendant is not entitled to relief on the basis of ineffective
assistance of counsel.
Defendant argues that the trial court erred when it failed to consider and grant his motion
for a change of venue based on the pretrial publicity of his case.3 On the first day of trial, the
court acknowledged that defendant’s motion was pending, but stated that the motion was
completely dependent on jury selection. Defendant voiced no disagreement, nor did he object to
the trial court’s plan to individually question all venire members who indicated having any
knowledge of the case. A thorough jury selection process ensued, which included sequestered
questioning of any venire member who had any knowledge of the case. Any venire members
who expressed an opinion on defendant’s guilt were promptly excused. Defendant did not use
all of his preemptory challenges and expressed his satisfaction with the chosen jury, electing not
to reassert his request for a change of venue. Because the trial court followed the steps suggested
to minimize the prejudice of pretrial publicity by our Supreme Court in Jendrzejewski, 455 Mich
at 509-510, defendant expressed his satisfaction with the chosen jury, did not renew his motion,
and did not exhaust his preemptory challenges, as well as the general rule that a criminal
defendant must be tried in the county where the crime was committed, People v Unger, 278
Mich App 210, 253; 749 NW2d 272 (2008), we find no error in the trial court’s implicit denial of
defendant’s request for a change of venue.
Affirmed.

/s/ Michael J. Kelly
/s/ Jane M. Beckering
/s/ Douglas B. Shapiro

3 We review a trial court’s decision on a motion for change of venue for an abuse of discretion.
People v Jendrzejewski, 455 Mich 495, 509; 566 NW2d 530 (1997).

APPENDIX B

Order

Michigan Supreme Court
Lansing, Michigan
Robert P. Young, Jr.,
ChiefJustice

July 26,2016

Stephen J. Markman
Brian K. Zahra
Bridget M. McCormack
David F. Vnriano
Richard H. Bernstein
Joan L. Larsen,
Justices

150854

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC:150854
COA: 317215
Kalamazoo CC: 2012-001228-FC

v
JOHN ANTHONY AGUILAR,
Defendant-Appellant.

On order of the Court, the application for leave to appeal the November 20, 2014
judgment of the Court of Appeals is considered and, pursuant to MCR 7.305(H)(1), in
lieu of granting leave to appeal, we REMAND this case to the Kalamazoo Circuit Court
for consideration of the defendant’s issue regarding the assessment of court costs. In all
other respects, leave to appeal is DENIED, because we are not persuaded that the
remaining questions presented should be reviewed by this Court.
We do not retain jurisdiction.

aiG/Lfr

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court
July 26,2016
t0718

Clerk

APPENDIX C

-Case l:17-cv-00735-PLM-PJG ECF No. 20 filed 10/23/19 PagelD.2121 Page 1 of 4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
John Aguilar, #169244,

)
)
)
)
)
)

Petitioner,
-v-

Carmen Pajlmer,
Respondent.

No. l:17-cv-735
Honorable Paul L. Maloney

)

ORDER ADOPTING REPORT AND RECOMMENDATION
John Aguilar filed a petition for habeas relief under 28 U.S.C. § 2254. The magistrate
judge issued a report recommending the petition be denied. (ECF No. 13.) Aguilar filed
objections. (ECF No. 18.)
A.
After being served with a report and recommendation (R&R) issued by a magistrate
judge, a party has fourteen days to file written objections to the proposed findings and
recommendations. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(2). A district court judge
reviews de novo the portions of the R&R to which objections have been filed. 28 U.S.C. §
636(b)(1); Fed. R. Civ. P. 72(b)(3). Only those objections that are specific are entitled to a
de novo review under the statute. Mira v. Marshall, 806 F.2d 636, 637 (6th Cir. 1986) (per
curiam).

"[A]n objection that does nothing more than state a disagreement with the

magistrate's suggested resolution, or simply summarizes what has been presented before, is
not an 'objection' as that term is used in the context of Federal Rule of Civil Procedure 72."

Case l:17-cv-00735-PLM-PJG ECF No. 20 filed 10/23/19 PagelD.2122 Page 2 of 4-

Brown v. City of Grand Rapids, Michigan, No. 16-2433, 2017 WL 4712064, at *2 (6th Cir.
June 16, 2017).
B. Assessment of Costs
The magistrate judge concluded that the state trial court’s assessment of court costs
was not an issue or claim that could be reviewed by the federal courts as part of a § 2254
petition. Aguilar objects’ (T1 h referring the court to the law cited in his brief. The objection
is overruled. Aguilar has not specifically identified the alleged error in the report and
recommendation. Simply disagreeing with the recommendation is not a proper objection.
C. Pretrial Publicity
The magistrate judge concluded that Aguilar had not established prejudice from die
pretrial publicity which would have required a change of venue. Aguilar objects (M 2-8.)
The objection is overruled.

The magistrate judge accurately summarized the record

regarding jury selection and the litigation of this issue. Contrary to Aguilar’s assertion, federal
law does not require the presumption of prejudice under the circumstances of his trial. See
Murphy v. Florida, 421 U.S. 794, 798-799 (1975) (holding that precedent does not require
“that juror exposure to information about a state defendant’s prior convictions or to news
accounts of the crime with which he is charged alone presumptively deprives the defendant
of due process.”).

Aguilar does not dispute the factual findings in the report and

recommendation: all of the jurors who hinted at bias were removed by the trial court; almost
all of the jurors who admitted that they had some knowledge of the case through the media
were excused by counsel; and the only juror who deliberated who admitted some knowledge

2

*

* -Case l:17-cv-00735-PLM-PJG ECF No. 20 filed 10/23/19 PagelD.2123 Page 3 of 4

of the case also stated that he would base is decision entirely on the evidence produced in
court
D. Ineffective Assistance of Counsel
Under this third issue, Aguilar raised three separate claims. The magistrate judge
discussed each claim in detail, summarizing the relevant testimony at trial, outlining the
applicable law, and then applying the law to -the facts. The magistrate judge concluded that
Aguilar failed to establish a meritorious claim for habeas relief for each of the three issues.
Aguilar objects (ffl 9-13.) The objection is overruled. Aguilar’s objection does not identify
any factual finding in die report and recommendation tiiat is contradicted by die record.
Aguilar’s citation to cases involving claims similar to those he raised does not establish that
the state trial or appellate court applied a rule tiiat was different than that held by die United
States Supreme Court And, Aguilar has not specifically explained why die magistrate’s
conclusions are contrary to federal law.

.3

Case l:17-cv-00735-PLM-PJG ECF No. 20 filed 10/23/19 PagelD.2124 Page 4 of 4

For these reasons, tlie Report and Recommendation (ECF No. 13) is ADOPTED as
the Opinion of this Court John Aguilar’s petition for habeas relief is DENIED.

The Com! has reviewed the record for the purpose of determining whether to issue
a certificate of appealability. Noting the summary of the relevant law provided in the Report
and Recommendation, the Court agrees vdth the magistrate judge that reasonable jurists
would not disagree with the decision here. Accordingly, a certificate of appealability is
DENIED. ITIS SO ORDERED.
Date: October 23. 2019

/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

4

APPENDIX D

No. 19-2323
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHN AGUILAR,
Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED
Sep 22, 2020
DEBORAH S. HUNT, Clerk
ORDER

Before: CLAY, Circuit Judge.
John Aguilar, a Michigan prisoner proceeding pro se, appeals from a district court’s
judgment denying his 28 U.S.C. § 2254 habeas corpus petition. Aguilar’s timely notice of appeal
is construed as an application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b).
After an eight-day trial, a Michigan jury convicted Aguilar of first-degree murder
(supported by the two theories of premediated murder, in violation of Michigan Compiled Laws
§ 750.316(l)(a), and felony murder, in violation of § 750.316(l)(b)); first-degree home invasion,
in violation of § 750.110a(2); and armed robbery, in violation of § 750.529. See People v. Aguilar,
No. 317215, 2014 WL 6602532 (Mich. Ct. App. Nov. 20, 2014) (per curiam). These convictions
arose out of the murder of Robert Medema. Aguilar and Antonio Livingston broke into Medema’s
home, waited until he returned, beat him to death with a baseball bat, and stole his money.
Livingston was tried separately and convicted of first-degree murder and first-degree home
invasion. See State v. Livingston, No. 315611, 2014 WL 6852965 (Mich. Ct. App. Dec. 4, 2014)
(per curiam). Livingston then testified at Aguilar’s trial without consideration for his testimony.
Aguilar was sentenced to life imprisonment without parole for the murder conviction, 25 to 75
years of imprisonment for the home invasion conviction, and 35 to 75 years for the armed robbery
conviction.

No. 19-2323
-2-

On direct appeal, Aguilar raised three claims of ineffective assistance of counsel, arguing
that counsel: 1) elicited testimony from which the jury could conclude that he was a thief; 2) failed
to object to the prosecutor’s questions to Livingston about whether testimony by another witness
was accurate because it conflicted with Livingston’s testimony; and 3) failed to object to the jury’s
question to a police officer who testified about why he concluded that Aguilar was involved in a
plot to kill Medema. Aguilar, 2014 WL 6602532, at *2. Aguilar also argued that the trial court
erred in failing to grant his motion for a change of venue because of alleged pre-trial publicity. Id.
at *3.
The Michigan Court of Appeals affirmed Aguilar’s conviction and sentence, id., and
Aguilar filed a pro se petition for leave to appeal, adding an argument that the trial court erred in
assessing court costs under state law. The Michigan Supreme Court remanded the case to the trial
court for consideration of the court costs issue, but it denied leave to appeal in all other respects.
People v. Aguilar, 881 N.W.2d 487 (Mich. 2016) (mem.). On remand, the trial court affirmed its
imposition of $460 in costs.
In August 2017, Aguilar filed his § 2254 habeas petition, raising the same grounds raised
in his direct appeal, including the issue regarding court costs. The matter was referred to a
magistrate judge, who recommended denying the petition and denying issuance of a COA. The
district court considered Aguilar’s objections and adopted the recommendation, denying the
petition and issuance of a COA.
A COA may issue when an “applicant has made a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Habeas
corpus relief may be granted on claims that were adjudicated in state court only if the state-court
adjudication was contrary to, or involved an Unreasonable application of, clearly established
federal law, or the state-court adjudication “was based on an unreasonable determination of the

No. 19-2323
-3-

facts.” 28 U.S.C. § 2254(d). Where the state courts adjudicated the petitioner’s claims on the
merits, the relevant question is whether the district court’s application of 28 U.S.C. § 2254(d) to
those claims is debatable by jurists of reason. Miller-El, 537 U.S. at 336-37. When the district
court denies a habeas petition on procedural grounds without reaching the prisoner’s underlying
constitutional claim, a COA should issue when the prisoner shows, at least, that “jurists of reason
would find it debatable whether the petition states a valid claim of the denial of a constitutional
right and jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Ineffective-Assistance Claims
Reasonable jurists could not debate the district court’s rejection of Aguilar’s ineffectiveassistance claims. These claims are reviewed under a two-part test requiring a defendant to show
that counsel’s performance was deficient and that the deficient performance prejudiced the
defense.

Strickland v. Washington, 466 U.S. 668, 687 (1984).

In evaluating counsel’s

performance, “a court must indulge a strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action ‘might be considered sound trial
strategy.’” Id. (quoting Michel v. Louisiana, 350 U.S. 91, 101 (1955)). When the district court
applies § 2254(d) to a state court’s rejection of an ineffective-assistance claim, the question “is not
whether counsel’s actions were reasonable” but “whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.” See Harrington v. Richter, 562 U.S. 86, 105
(2011).
Regarding Aguilar’s claim that counsel should not have elicited testimony about his history
of stealing, reasonable jurists could not debate the district court’s conclusion that “the state
appellate court’s assessment of the soundness of counsel’s approach is not unreasonable.” As the
district court noted, counsel “faced significant evidence” of Aguilar’s “involvement in some sort
of wrongdoing,” including his inculpatory responses to police questioning, witnesses’ testimony
regarding Aguilar’s attempts to recruit them to criminal behavior, and the presence of Aguilar’s

No. 19-2323
-4-

truck and cell phone in the area of the crime. Livingston also provided detailed testimony about
Aguilar’s participation in the home invasion, robbery, and murder. Rather than attempt to portray
Aguilar as wholly innocent, counsel adopted a strategy of portraying him as a petty thief who had
stolen items to sell at a garage sale, but not a robber or murderer. See Aguilar, 2014 WL 6602532,
at * 1. Reasonable jurists would agree that it was not unreasonable for the state court to conclude
that this was within the wide range of acceptable strategies.
Next, Aguilar claims that counsel’s performance was deficient for failing to object to the
prosecutor’s questions to Livingston regarding the veracity of testimony by another witness,
Elizabeth Summers. Reasonable jurists would not debate the district court’s rejection of this claim,
because the state appellate court determined that the prosecutor’s questions were proper, id. at *2,
and federal courts are bound by state court rulings on matters of state law, see Stumpfv. Robinson,
722 F.3d 739,746 n.6 (6th Cir. 2013). An attorney is not ineffective for failing to make a meritless
objection.
Aguilar’s final ineffective-assistance claim is that counsel performed deficiently when she
failed to object to the jury’s question to a testifying police officer about the basis for his belief that
Aguilar was involved in the plot to rob Medema. Aguilar argued, and the state appellate court
agreed, that this question could have been construed as one asking the officer if he believed Aguilar
was guilty of the charges, which is prohibited under state law. See Aguilar, 2014 WL 6602532, at
*2. The state appellate court presumed that counsel’s decision about the manner of questioning
the police officer was a matter of trial strategy. Id. And, in fact, counsel did object “when the
officer’s answer became lengthy and referenced some evidence that was not presented at trial.”
Id. But even if counsel’s performance fell below objective standards of reasonableness, the state
appellate court concluded, Aguilar failed to show prejudice by demonstrating that the result of the
trial would have been different without the police officer’s opinion. Id.-, see Strickland, 466 U.S.
at 687. The district court found that conclusion to be reasonable, and reasonable jurists would not
disagree.

No. 19-2323
-5To establish prejudice, a petitioner must show “that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. The jury heard evidence of Aguilar’s guilt, including Livingston’s
testimony about Aguilar’s involvement in the crime. See Aguilar, 2014 WL 6602532, at *2. In
these circumstances, reasonable jurists would not debate the district court’s determination that the
state court acted reasonably in rejecting Aguilar’s ineffective-assistance claim.
Unfair Trial Due to Prejudicial Publicity
Aguilar argues that the trial court violated his right to a fair trial by denying his motion for
a change of venue due to pretrial publicity. A change in venue should be granted if it is wellestablished that pretrial publicity jeopardizes a defendant’s right to a fair trial. See Irvin v. Dowd,
366 U.S. 717, 722-24 (1961); Foley v. Parker, 488 F.3d 377, 387 (6th Cir. 2007). “Prejudice from
pretrial publicity is rarely presumed.” Foley, 488 F.3d at 387. Extensive media coverage and
knowledge within the community of the crimes and of the defendant are insufficient by themselves
to create a presumption that a defendant was denied a fair trial. Dobbert v. Florida, 432 U.S. 282,
303 (1977). Rather, a presumption of prejudice should be applied only in “the extreme case,”
Skilling v. United States, 561 U.S. 358, 381 (2010), where a conviction was “obtained in a trial
atmosphere that had been utterly corrupted by press coverage,” Murphy v. Florida, 421 U.S. 794,
798 (1975).
In rejecting this claim, the Michigan Court of Appeals described the trial court’s thorough
examination of the jurors during voir dire, noting that each venire member was sequestered and
questioned individually regarding their knowledge of the case and whether they could remain
unbiased. Aguilar, 2014 WL 6602532, at *3. “Any venire members who expressed an opinion on
defendant’s guilt were promptly excused.” Id. Moreover, Aguilar did not exhaust his peremptory
challenges, and he ultimately elected not to request a change of venue after the final selection.
Based on these circumstances, the Michigan appellate court found no error in the trial court’s
denial of Aguilar’s motion for a change in venue. Id. On this record, and absent any evidence of

No. 19-2323
-6juror partiality, reasonable jurists would not debate the district court’s determination that the state
appellate court acted reasonably.
Challenge to Court Costs
The district court determined that Aguilar was precluded from challenging the imposition
of any fine or costs in his habeas petition. Under § 2254, subject matter jurisdiction exists “only
for claims that a person ‘is in custody in violation of the Constitution or law or treaties of the
United States.’” See Washington v. McQuiggin, 529 F. App’x 766, 773 (6th Cir. 2013) (quoting
Dickerson v. United States, 530 U.S. 428, 439 n.3 (2000) (quoting 28 U.S.C. § 2254(a)); see also
United States v. Watroba, 56 F.3d 28, 29 (6th Cir. 1995) (holding that 28 U.S.C. § 2255 does not
grant subject matter jurisdiction over restitution orders). Therefore, reasonable jurists could not
disagree with the district court’s conclusion that Aguilar’s third claim is not cognizable in this
federal habeas proceeding because noncustodial punishments do not satisfy the “in custody”
requirement of § 2254.
Accordingly, this court DENIES Aguilar’s application for a COA.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case l:17-cv-00735-PLM-PJG

ECF No. 21 filed 10/23/19 PagelD.2125 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
John Aguilar, #169244,
Petitioner,
-vCarmen Palmer,
Respondent

)
)
)
)
)
)
),

No. l:17-cv-735
Honorable Paul L. Maloney

J
TUDGMENT
The Court has denied John Aguilar’s petition for habeas relief filed under 28 U.S.C.
§ 2254. As required by Rule 58 of the Federal Rules of Civil Procedure, JUDGMENT
ENTERS.
THIS ACTION IS TERMINATED.
IT IS SO ORDERED.
/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

Date: October 23. 2019

ertifted as a TrueMJopy
By.

Deputy Clerk

U.S. District Court
Western Dlst. of Michigan
Date

\

Additional material
from this filing is
available in the
Clerk's Office.

